SEMIANNUAL REPORT TO THE CONGRESS

     OCTOBER 1, 2008 – MARCH 31, 2009

     OFFICE OF INSPECTOR GENERAL

   NATIONAL ENDOWMENT FOR THE ARTS
                                                                           April 30, 2009



MEMORANDUM

TO:            Patrice Walker Powell
               Acting Chairman

FROM:          Tonie Jones
               Acting Inspector General

SUBJECT:       Semiannual Report to the Congress: October 1, 2008 – March 31, 2009


The Inspector General Act of 1978 (Public Law 95-452), as amended, calls for the preparation of
semiannual reports to the Congress summarizing the activities of the Office of Inspector General
(OIG) for the six-month periods ending each March 31 and September 30. I am pleased to enclose
the report for the period from October 1, 2008 to March 31, 2009.

The Inspector General’s report is intended to cover audits, inspections, evaluations, investigations and
other reviews conducted by the OIG as well as our review of the OMB Circular A-133 audits
conducted by independent auditors. The report also indicates the status of management decisions
whether to implement or not to implement recommendations made by the OIG. The former
President’s Council on Integrity and Efficiency developed the reporting formats for Tables I and II to
ensure consistent presentation by the Federal agencies. The tables provide only summary totals and
do not include a breakdown by auditee.

The Act requires that you transmit this report to the appropriate committees of the Congress within 30
days of receipt, together with any comments you may wish to make. Comments that you might offer
should be included in your "Report on Final Action," a management report that is required to be
submitted along with the Inspector General’s report. We will work closely with your staff to assist in
the preparation of the management report. The due date for submission of both reports is May 31,
2009.

I appreciate the continuing support we have received from the Chairman’s Office and your managers
throughout the Agency. Working together, I believe we have taken positive steps to improve Agency
programs and operations. We look forward to continuing these efforts.
                                 TABLE OF CONTENTS

                                                                                          PAGE


NATIONAL ENDOWMENT FOR THE ARTS                                                             1

OFFICE OF INSPECTOR GENERAL                                                                 1

SUMMARY OF WORK COMPLETED BY THE OIG                                                        2

   Audits/Inspections/Evaluations/Reviews                                                   2
   Audit Resolution                                                                         2
   Inspections                                                                              2
   Investigations                                                                           2
   Indirect Cost Rate Negotiations                                                          2
   Review of Legislation, Rules, Regulations and Other Issuances                            3
   Technical Assistance                                                                     3
   Web Site                                                                                 3
   Other Activities                                                                         3

SECTIONS OF REPORT                                                                          4

   SECTION 1 - Significant Problems, Abuses and Deficiencies                                4

   SECTION 2 - Recommendations for Corrective Action                                        4

   SECTION 3 - Recommendations in Previous Reports on Which
                 Corrective Action Has Not Been Implemented                                 4

   SECTION 4 - Matters Referred to Prosecuting Authorities                                  4

   SECTION 5 - Denials of Access to Records                                                 4

   SECTION 6 - Listing of Reports Issued                                                    5

   SECTION 7 - Listing of Particularly Significant Reports                                  6

   SECTION 8 - Statistical Tables Showing Total Number of Audit Reports, Inspection Reports,
                 and Evaluation Reports and the Dollar Value of Questioned Costs             6

   SECTION 9 - Statistical Tables Showing Total Number of Audit Reports, Inspection Reports,
                 and Evaluation Reports and the Dollar Value of Recommendations
                 That Funds be Put to Better Use by Management                               6

   SECTION 10 - Audit Reports, Inspection Reports, and Evaluation Reports Issued Before
                 the Commencement of the Reporting Period for Which No Management
                 Decision Has Been Made by the End of the Reporting Period                  6
                                   TABLE OF CONTENTS

                                                                                         PAGE


     SECTION 11 - Significant Revised Management Decisions Made During the Period           7

     SECTION 12 - Significant Management Decisions With Which the Inspector
                    General Disagrees                                                       7

TABLE I - Inspector General Issued Reports With Questioned Costs                            8

TABLE II - Inspector General Issued Reports With Recommendations That Funds
              Be Put To Better Use                                                          9

Definitions of Terms Used                                                           Appendix A
NATIONAL ENDOWMENT FOR THE ARTS
Founded in 1965, the National Endowment for the Arts (NEA) has offered assistance to a wide range
of non-profit organizations and individuals that carry out arts programming. The NEA supports
exemplary projects in the artistic disciplines. Grants are awarded for specific projects rather than for
general operating or seasonal support. Most NEA grants must be matched dollar for dollar with non-
federal funds. For FY 2009, the NEA received an appropriation of $155 million from the Omnibus
Appropriations Act of 2009. In addition, the NEA received $50 million in 2009 under the American
Recovery and Reinvestment Act of 2009. These additional funds do not require matching.

OFFICE OF INSPECTOR GENERAL
The Inspector General Act Amendments of 1988, Public Law 100-504, amended the Inspector
General Act of 1978, Public Law 95-452, and required the establishment of independent Offices of
Inspector General (OIG) at several designated Federal entities and establishments, including the
National Endowment for the Arts. The mission of the OIG is to:

       - Conduct and supervise independent and objective audits, inspections and evaluations
         relating to NEA programs and operations;

       - Promote economy, effectiveness, and efficiency within the NEA;

       - Prevent and detect fraud, waste, and abuse in NEA programs and operations;

       - Review and make recommendations regarding existing and proposed legislation and
         regulations relating to NEA programs and operations; and

       - Keep the NEA Chairman and the Congress fully and currently informed of problems in
         Agency programs and operations.

On October 14, 2008, the President signed the Inspector General Reform Act of 2008, Public Law
110-409. The 2008 Act amends the previous IG Act of 1978 to enhance the independence of the
Inspectors General, to create a Council of the Inspectors General on Integrity and Efficiency, and for
other purposes.

This semiannual report summarizes the OIG's major activities, initiatives, and results for the six-month
period ending March 31, 2009. For part of this period the OIG consisted of three auditors, however,
one auditor (the inspector general) retired in January. To assist with the workload, a contractor was
hired to provide assistance one day a week. There is no investigator on the staff. In order to provide
a reactive investigative capability, we have a Memorandum of Understanding with the Inspector
General of the General Services Administration (GSA) whereby the GSA's OIG agrees to provide
investigative coverage for us on a reimbursable basis as needed. (No investigative coverage from
GSA was needed during the recent six-month period.) We also have a Memorandum of
Understanding with the National Science Foundation's (NSF) Office of Inspector General that details
procedures to be used for providing the OIG with legal services pursuant to the new requirements
reflected in the 2008 Act. A NSF OIG staff member has been assigned to provide such services on
an as-needed basis.



                                                                                                           1
SUMMARY OF WORK COMPLETED BY THE OIG
During the six-month period ending March 31, 2009, the OIG conducted the following audits,
inspections, evaluations, reviews, investigations, and other activities.

Audits/Inspections/Evaluations/Reviews

During the recent semiannual period, the OIG issued 8 reports. The reports were based on
audits/evaluations performed by OIG personnel. Overall, our reports contained 18 recommendations,
11 of which were related to systems deficiencies at grantee organizations, while the remaining 7
recommendations related to systems deficiencies at the NEA.

Audit Resolution

At the beginning of the six-month period, there were four reports awaiting a management decision to
allow or disallow questioned costs of $4,036,579 and potential refunds of $1,823,372. During the
period, none of the newly issued reports identified any questioned costs or potential refunds.

A management decision was made on one of the open reports to disallow questioned costs of
$33,260, which resulted in a refund to NEA of $16,630. Under that same report, a management
decision allowed questioned costs of $1,378,732, which eliminated a potential refund of $1,004,637.
In addition, a management decision on a second report allowed questioned costs of $67,228, which
eliminated a potential refund of $2,479. Therefore, at the end of the period, two reports remained
outstanding with questioned costs of $2,557,359 and potential refunds of $799,626. (See Table I.)

Inspections

The OIG did not conduct any inspections during the recent six-month period.

Investigations

The OIG did not open any new allegation cases during the recent six-month period. The one case
opened prior to start of the period remains open at the end of the period. No criminal investigations
were performed during the period.

Indirect Cost Rate Negotiations

Indirect costs are incurred for common or joint objectives, which cannot be readily and specifically
identified with a particular project or activity. The costs of operating and maintaining facilities,
depreciation or use allowances, and administrative salaries and supplies are typical examples of costs
that nonprofit organizations usually consider to be indirect.

Indirect cost rates are negotiated by agreement between a non-Federal organization and a Federal
agency (usually the agency that furnishes the preponderance of Federal funding) that acts on behalf
of all Federal agencies in approving rates with the organization. During this period, the OIG
negotiated two indirect cost rate agreements with NEA grantee organizations.

The OIG also makes use of an Indirect Cost Guide. The Guide answers such questions as: What are
direct or indirect costs, what is an indirect cost rate, and does an entity need an indirect cost rate? A
copy of the Guide can be found on NEA’s web site at www.arts.gov/about/OIG/IndirectCost.html.
                                                                                                          2
Review of Legislation, Rules, Regulations and Other Issuances

The OIG is required to review and comment on proposed legislation and regulations for their potential
impact on the Agency and its operations. During this reporting period, the OIG provided analyses and
written commentaries on Agency and other government publications/reports and regulations.

Technical Assistance

The OIG provided technical assistance to NEA grantees and their independent auditors. Our efforts
included, for example, clarifying and interpreting the audit requirements of OMB Circular A-133,
“Audits of States, Local Governments, and Non-Profit Organizations," explaining alternative methods
of accounting for indirect costs, and advising some of the first-time and smaller organizations on
implementing practical accounting systems and internal controls sufficient to assure compliance with
their grant agreements.

The OIG also assisted Agency staff with technical issues related to auditing, accounting, and audit
followup.

Web Site

The OIG maintains an ongoing Internet presence (www.arts.gov/about/OIG/Contents.html) to assist
and inform NEA grantees and Agency employees. The site was recently updated and includes the
Inspectors General Vision Statement, our two Financial Management Guides, our Indirect Cost Guide,
the Recovery Act: Reports and Plans, past Semiannual Reports to the Congress, the OIG Strategic
Plan, contact information about OIG staff, how to report wrongful acts, information about alternative
methods of funding, and answers to frequently asked questions.

Other Activities

During this period, the OIG took part in the activities of the Council on Inspectors General for Integrity
and Efficiency (Council), and allocated resources for responding to information requests from and for
the Congress and other agencies. In addition, the OIG has participated in various efforts by the
Council and other federal agencies to develop effective oversight strategies for Recovery Act
activities. The OIG also provided oversight of the Agency’s independent auditors as they completed
the Agency’s sixth annual financial statement audit for the fiscal year ending September 30, 2008.




                                                                                                        3
                                  SECTIONS OF REPORT
The following sections of this report discuss the 12 areas specifically required to be included
according to Section 5(a) of the IG Act of 1978, as amended. Table I shows Inspector General
issued reports with questioned costs and Table II also shows that there were no Inspector General
issued reports with recommendations that funds be put to better use.

SECTION 1 – Significant Problems,                   SECTION 2 – Recommendations for
Abuses and Deficiencies                             Corrective Action

Audits, evaluations and other reviews               To assist grantees in correcting or avoiding
conducted by OIG personnel during the               the deficiencies identified in Section 1, the
current and prior periods have disclosed a          OIG utilizes two “Financial Management
few instances of deficient financial                Guides,” one for non-profit organizations and
management practices in some organizations          the other for state and local governments.
that received NEA grants. Among these               The guides are not offered as complete
were:                                               manuals of procedures; rather, they are
                                                    intended to provide practical information on
   Reported grant project costs did not agree       what is expected from grantees in terms of
   with the accounting records, e.g., financial     fiscal accountability. The guides are available
   status reports were not always prepared          at www.arts.gov/about/OIG/Contents.html
   directly from the general ledger or
   subsidiary ledgers or from worksheets            The guides discuss accountability standards
   reconciled to the accounts;                      in the areas of financial management, internal
                                                    controls, audit, and reporting. The guides
   Personnel costs charged to grant projects        also contain sections on unallowable costs
   were not supported by adequate                   and shortcomings to avoid. In addition, the
   documentation, e.g., personnel activity          guides include short lists of useful references
   reports were not maintained to support           and some sample documentation forms.
   allocations of personnel costs to NEA
   projects when required;                          SECTION 3 – Recommendations in
                                                    Previous Reports on Which Corrective
   The amount allocated to grant projects for       Action Has Not Been Implemented
   common (indirect) costs which benefited
   all projects and activities of the               There were no significant recommendations
   organization was not supported by                in previous reports on which corrective action
   adequate documentation; and                      has not been implemented.

                                                    SECTION 4 – Matters Referred to
   Grantees needed to improve internal
   controls, such as ensuring proper                Prosecuting Authorities
   separation of duties to safeguard
                                                    No matters were referred to prosecuting
   resources and including procedures for
                                                    authorities during this reporting period.
   comparing actual costs with the budget.
                                                    SECTION 5 – Denials of Access to
                                                    Records

                                                    No denials of access to records occurred
                                                    during this reporting period.

                                                                                                      4
                                         SECTION 6 – Listing of Reports Issued

REPORT                                                                                                                                                             DATE OF
NUMBER                                                               TITLE                                                                                         REPORT



                                Financial Management System & Compliance Evaluation Reports

SCE-09-01   Los Reyes de Albuquerque Foundation, Inc. .................................................................................................... 10/02/08
SCE-09-02   Tricklock Company ........................................................................................................................................... 10/06/08
SCE-09-03   VSA Arts of New Mexico ................................................................................................................................... 10/07/08
SCE-09-04   Woodland Pattern, Inc... ................................................................................................................................... 10/08/08

                                                                             Audit Report

A-09-01     Audit of NEA Financial Statements as of September 30, 2008 and 2007......................................................... 11/12/08

                                                             Limited Scope Evaluation Report

LSE-09-01   Virgin Islands Council on the Arts ..................................................................................................................... 03/25/09


                                                                     Special Review Reports

R-09-01     NEA Annual Federal Information Security Management Report and Privacy Report ....................................... 10/01/08
R-09-02     Fiscal Year 2008 Evaluation of NEA’s Compliance with the Federal Information Security Act of 2002 ............ 10/09/08




                                                                 TOTAL REPORTS – 8




                                                                                                                                                          5
SECTION 7 – Listing of Particularly               Grantee should provide information on
Significant Reports                               whether any of the sponsorees associated
                                                  with the grants listed in the report qualify as
There were no particularly significant reports    those which can be represented by fiscal
during the reporting period.                      agent per NEA Application Guidelines or
                                                  refund the appropriate NEA share of that
SECTION 8 – Statistical Tables Showing            grant plus any applicable interest.
Total Number of Audit Reports, Inspection
Reports, and Evaluation Reports and the           Reason No Management Decision Was
Dollar Value of Questioned Costs                  Made

Table I of this report presents the statistical   Grantee has provided documentation for
information showing the total number of audit     expenditures under all but three of the grants
reports, inspection reports, and evaluation       but has requested additional time to gather
reports and the total dollar value of             remaining documentation since some of the
questioned costs.                                 grant periods remain open. We will review
                                                  the information obtained to date and make a
SECTION 9 – Statistical Tables Showing            determination whether or not the costs are
Total Number of Audit Reports, Inspection         sufficient, appropriate and reasonable in
Reports, and Evaluation Reports and the           relation to project accomplishments to satisfy
Dollar Value of Recommendations that              the matching requirements. A management
Funds be Put to Better Use by                     decision should be finalized by 12/31/09.
Management
                                                  Grantee provided information on whether
As shown on Table II, there were no audit         any of the sponsorees associated with the
reports, inspection reports and evaluation        grants qualify as those which can be
reports with recommendations that funds be        represented by a fiscal agent. A
put to better use by management.                  management decision was made
                                                  subsequent to 3/31/09.
SECTION 10 – Audit Reports, Inspection
                                                  2. SCE-08-03 – Music-Theatre Group –
Reports, and Evaluation Reports Issued
                                                     Issued 11/21/07
Before the Commencement of the
Reporting Period for Which No
                                                  Recommendation
Management Decision Has Been Made by
the End of the Reporting Period
                                                  Grantee should provide information to
                                                  support the questioned salary and overhead
1. LS-08-01 – Film Arts Foundation –
                                                  costs of $64,304 claimed under Grant No.
   Issued 11/1/07
                                                  03-2800-5011. If the documentation
                                                  submitted is not deemed satisfactory, a
Recommendation                                    refund of up to $18,626 may be required.
Grantee should provide appropriate
                                                  Reason No Management Decision Was
expenditure documentation for each grant
                                                  Made
listed in Appendix 1 or refund the appropriate
NEA share of that grant plus any applicable
                                                  Grantee’s response included information that
interest.
                                                  it believes supports the questioned costs.
                                                  The information will be reviewed shortly and
                                                  a management decision should be made by
                                                  6/30/09.

                                                                                            6
SECTION 11 – Significant Revised
Management Decisions Made During the
Period

No significant revised management decisions
were made during the reporting period.

SECTION 12 – Significant Management
Decisions With Which the Inspector General
Disagrees

There were no significant management decisions
that the Inspector General disagreed with during
the reporting period.




                                                   7
                                                      TABLE I

                      INSPECTOR GENERAL ISSUED REPORTS
                            WITH QUESTIONED COSTS


                                                                     QUESTIONED UNSUPPORTED                     POTENTIAL
                                                      NUMBER             COSTS                COSTS             REFUNDS1
  A. For which no management decision
      has been made by the commencement
      of the reporting period                              4             4,036,579          (4,036,579)          1,823,372


  B. Which were issued during the reporting
      period                                               0                 ____ 0                   (0)                  0


      Subtotals (A + B)                                    4             4,036,579          (4,036,579)          1,823,372


  C. For which a management decision was
      made during the reporting period       2/            2             1,479,220          (1,479,220)          1,023,746


       (i)       Dollar value of disallowed costs          1                 33,260            (33,260)              16,630


       (ii)      Dollar value of costs not
                 disallowed                                2             1,445,960          (1,445,960)          1,007,116


  D. For which no management decision has
      been made by the end of the reporting
      period                                               2             2,557,359          (2,557,359)            799,626


      Reports for which no management
      decision was made within six months of
      issuance                                             2             2,557,359          (2,557,359)            799,626




1/ The potential refund amount usually will not equal the questioned costs amount because matching requirements must be

   considered and the grantee may be either under or over matched. In addition, historically, the potential refund generally is
   reduced significantly as a result of the audit followup process, which includes examination of documentation submitted by the
   grantee.
2/ One of the grantees had costs, which were disallowed and not disallowed.

                                                                                                                                  8
                                      TABLE II

         INSPECTOR GENERAL ISSUED REPORTS
WITH RECOMMENDATIONS THAT FUNDS BE PUT TO BETTER USE

                                                            DOLLAR
                                                   NUMBER    VALUE

 A. For which no management decision has been
    made by the commencement of the reporting
    period                                           0        0

 B. Which were issued during the reporting
    period                                           0        0

    Subtotals (A + B)                                0        0

 C. For which a management decision was made
    during the reporting period                      0        0

    (i) dollar value of recommendations
        that were agreed to by management            0        0

        -   based on proposed management
            action                                   0        0

        -   based on proposed legislative action     0        0

    (ii) dollar value of recommendations
         that were not agreed to by management       0        0

 D. For which no management decision has been
    made by the end of the reporting period          0        0

    Reports for which no management decision
    was made within six months of issuance           0        0




                                                                     9
                                                                                  APPENDIX A

                            DEFINITIONS OF TERMS USED

The following definitions apply to terms used in reporting audit statistics:


Questioned Cost                       A cost that the Office of Inspector General (OIG)
                                      questioned because of alleged violation with a provision of
                                      a law, regulation, contract, or other agreement or
                                      document governing the expenditure of funds; such cost is
                                      not supported by adequate documentation; or the
                                      expenditure of funds for the intended purpose is
                                      unnecessary or unreasonable.

Unsupported Cost                      A cost which the OIG questioned because the cost was
                                      not supported by adequate documentation at the time of
                                      the audit.

Disallowed Cost                       A questioned cost that management has sustained or
                                      agreed should not be charged to the NEA grant or
                                      cooperative agreement.

Funds Be Put To Better Use            A recommendation made by the OIG that funds could be
                                      used more efficiently if management took actions to
                                      implement and complete the recommendation.

Management Decision                   Management's evaluation of the findings and
                                      recommendations contained in the audit report and the
                                      issuance of management’s final decision, including actions
                                      to be taken. Interim decisions and actions are not
                                      considered final management decisions for the purpose of
                                      the tables in this report.

Final Action                          The completion of all actions that management has
                                      concluded in its management decision with respect to
                                      audit findings and recommendations. If management
                                      concluded that no actions were necessary, final action
                                      occurs when a management decision was made.
                      REPORTING WRONGFUL ACTS

Anyone, including Agency employees, who learns about or has reason to suspect the
occurrence of any unlawful or improper activity related to NEA operations or programs,
should contact the OIG immediately. A complaint/referral may be made by visiting the
OIG office, calling the OIG at 202-682-5402, emailing at oig@arts.gov or writing to the
Office of Inspector General, Room 601, 1100 Pennsylvania Avenue, NW, Washington, DC
20506.



When contacting the OIG, it will help if you have answers to the following questions:
       Who are the parties involved (names, addresses and phone numbers if possible);

       What is the suspected activity (specific facts of the wrongdoing);

       When and where did the wrongdoing occur;

       How did you learn about the activity (from a third party, actual observation, conclusion drawn from
       observing or performing different activities, etc.); and

       Where can you be contacted or when will you contact us again.



The OIG will not disclose the identity of a complainant or informant without consent,
unless the Inspector General determines that such disclosure is unavoidable during the
course of the investigation. You may remain anonymous, if you choose. Federal employees
are protected against reprisal for disclosing information to the Inspector General unless
such disclosure was knowingly false.
     CHAIRMAN’S SEMIANNUAL REPORT
            ON FINAL ACTION
RESULTING FROM AUDIT REPORTS, INSPECTION
   REPORTS, AND EVALUATION REPORTS

   October 1, 2008 through March 31, 2009


                 Submitted
                 May 2009
                             TABLE OF CONTENTS




INTRODUCTION                                                               1

REPORT ON FINAL ACTION RESULTING FROM AUDIT REPORTS,
INSPECTION REPORTS, AND EVALUATION REPORTS

  Section 1    Comments Relating to the Inspector General's Report         2

  Section 2    Management Report on Final Action on Audits, Inspections,
               and Evaluations with Disallowed Costs for the Six-Month
               Period Ending March 31, 2009                                3

  Section 3    Management Report on Final Action on Audits, Inspections,
               and Evaluations with Recommendations to Put Funds to
               Better Use for the Six-Month Period Ending March 31, 2009   3

  Section 4    Audit Reports, Inspection Reports, and Evaluation Reports
               for Which a Management Decision Was Made Prior to
               April 1, 2008, but on Which Final Action Has Not Occurred   3

  Table A      Management Report on Final Action on Audits, Inspections,
               and Evaluations with Disallowed Costs for the Six-Month
               Period Ending March 31, 2009                                4

  Table B      Management Report on Final Action on Audits, Inspections,
               and Evaluations with Recommendations to Put Funds to
               Better Use for the Six-Month Period Ending March 31, 2009   5
                                  INTRODUCTION


The Inspector General Act of 1978, as amended by the Inspector General Act Amendments of
1988 (Public Law 100-504), established independent, objective units within Federal agencies
for the following purposes:

   •   To supervise and conduct audits and investigations of agency programs and operations;

   •   To lead, coordinate, and recommend policies for promoting economy, efficiency, and
       effectiveness in the administration of programs and operations, and to prevent and
       detect fraud and abuse therein; and

   •   To keep the agency head and the Congress informed about related problems and
       deficiencies and associated corrective action.

On October 14, 2008, the President signed the Inspector General Reform Act of 2008 (Public
Law 110-409). The 2008 Act amends the previous IG Act of 1978 to enhance the
independence of the Inspectors General, to create a Council of the Inspectors General on
Integrity and Efficiency, and for other purposes.

Section 106(a) of P.L. 100-504 requires the Inspector General to report semiannually on the
office’s activities for the preceding six-month periods ending March 31st and September 30th.
The report must (1) address significant problems, abuses, and deficiencies in the management
of agency programs and operations identified during the reporting period, and (2) identify
recommendations for corrective action. Section 106(b) directs the Inspector General to furnish
this report within 30 days to the agency head, who is required to prepare a separate report on
management decisions resulting from audit reports, inspection reports, evaluation reports, the
status of disallowed costs, and final actions taken during the corresponding period, including
any comments deemed appropriate. The agency head must transmit both reports to the
Congress within the ensuing 30 days.

Accordingly, the Chairman presents the Arts Endowment’s management report for the period
October 1, 2008 through March 31, 2009.




                                              1
        REPORT ON FINAL ACTION RESULTING FROM AUDIT REPORTS,
            INSPECTION REPORTS, AND EVALUATION REPORTS


Section 1.   Comments Relating to the Inspector General's Report

             A. Comments on OIG’s Summary Section

             Audits/Inspections/Evaluations/Reviews. As reported in the Inspector General’s
             Semiannual Report to the Congress, at the end of the reporting period there were
             two outstanding reports with questioned costs and potential refunds; management
             continues to work with the auditees to resolve the outstanding audit issues.

             When the Audit Followup Official disallows questioned costs, it is typically
             because the grantee or cooperator has responded inadequately to the Arts
             Endowment’s request for supporting documentation, such as canceled checks,
             invoices, contracts, personnel activity reports, or testimonial evidence. Agency
             funds may represent only a small portion of an awardee’s total project costs.
             Deficiencies normally are resolved through the Agency’s audit resolution process,
             and refunds are infrequent.

             Technical Assistance: Improved Oversight. The Arts Endowment places a high
             priority on ensuring employees are well informed about policies, procedures, and
             requirements related to grants administration and audits. The Grants & Contracts
             Office routinely conducts training on various topics for Agency staff, including
             targeted one-on-one training as necessary. During the period, the Grants &
             Contracts Office and the OIG continued to provide technical assistance and
             compliance evaluations for grantees.

             Web Site. The Arts Endowment continues to provide its “My Grant at a Glance”
             feature on the Agency Web site. In addition to tracking the status of payment
             requests online, grantees can obtain historical reports of their grants back to at
             least 1988. The reports include the amount of the grant, the period of support, and
             a brief project description. The Arts Endowment also enhanced the user-
             friendliness of its online grant application information and the electronic
             application submission process. Electronic application submission (through
             Grants.gov, the government-wide grant application portal) is now required across
             all Arts Endowment programs; applicants unable to apply electronically through
             Grants.gov must request permission from the Agency to submit applications
             through an alternative method.

             Other Activities. Arts Endowment staff continued to work closely with the OIG
             on issues of mutual interest, such as the independent audit of the Agency’s
             financial statements for fiscal year 2008 and Recovery Act activities. As
             mentioned in the Semiannual Report, for part of this period the OIG consisted of

                                               2
             three auditors; one auditor (the Inspector General) retired in January. The Agency
             is now actively recruiting to fill both the Inspector General position (at the SES
             level), and a new auditor position that will be focused initially on oversight of the
             Agency’s Recovery Act activities.

             B. Comments on OIG’s Sections 1 and 2

             OIG audit, inspection, and evaluation reports on Arts Endowment awardees are
             based upon reviews conducted by the OIG itself or upon OIG analysis of audits
             completed by outside auditors. The outside audits may be performed by State
             audit agencies, by other Federal agencies (generally the agency providing the
             greatest amount of Federal funding to an organization also supported by the Arts
             Endowment), or by independent public accountants engaged by awardees.

Section 2.   Management Report on Final Action on Audits, Inspections, and Evaluations
             with Disallowed Costs for the Six-Month Period Ending March 31, 2009
             (Section 8 of the OIG Report)

             There were no audit, inspection, or evaluation reports with management decisions
             made that were awaiting final action at the beginning of the period. During the
             period, management decisions were made on one audit report and one evaluation
             report, which also resulted in a final action being taken on both. The audit report
             included disallowed costs of $33,260, which resulted in a refund of $16,630 to the
             NEA. At the end of the period, there were no reports awaiting final action. (See
             Table A).

Section 3.   Management Report on Final Action on Audits, Inspections, and Evaluations
             with Recommendations to Put Funds to Better Use for the Six-Month Period
             Ending March 31, 2009 (Section 9 of the OIG report)

             There were no audits, inspections, and evaluations with recommendations to put
             funds to better use awaiting final action as of March 31, 2009 (see Table B).

Section 4.   Audit Reports, Inspection Reports, and Evaluation Reports for Which a
             Management Decision Was Made Prior to April 1, 2008, but on Which Final
             Action Has Not Occurred

             There were no audit, inspection, or evaluation reports for which a management
             decision was made prior to April 1, 2008, on which final action has not yet
             occurred.




                                                3
                                          TABLE A

              MANAGEMENT REPORT ON FINAL ACTION
ON AUDITS, INSPECTIONS, AND EVALUATIONS WITH DISALLOWED COSTS
        FOR THE SIX-MONTH PERIOD ENDING MARCH 31, 2009


                                                       # OF    DISALLOWED POTENTIAL
                         ITEM                        REPORTS      COSTS   REFUNDS

 A.   Audit/inspection/evaluation reports with
      management decisions on which final
      action had not been completed at the
      beginning of the reporting period.
                                                        0               $0        $0

 B.   Audit/inspection/evaluation reports on
      which management decisions were made
      during the period.
                                                        2            33,260    16,630

 C. Total audit/inspection/evaluation reports
    pending final action during the period
    (A + B).                                            2            33,260    16,630

 D. Audit/inspection/evaluation reports on
    which final action was taken during the
    period:


      1. Recoveries

        a. Collection & offsets                         1            33,260    16,630

        b. Property                                     0                0         0

        c. Other                                        1                0         0


      2. Write-offs                                     0                0         0


      3. Total (D1 + D2)                                2            33,260    16,630


 E.   Audit/inspection/evaluation reports needing
      final action at the end of the period
      (C – D3).                                         0               $0        $0




                                                 4
                                            TABLE B

    MANAGEMENT REPORT ON FINAL ACTION ON AUDITS, INSPECTIONS,
AND EVALUATIONS WITH RECOMMENDATIONS TO PUT FUNDS TO BETTER USE
         FOR THE SIX-MONTH PERIOD ENDING MARCH 31, 2009

                                                                             FUNDS TO BE
                                                                     # OF      PUT TO
                                  ITEM                             REPORTS   BETTER USE


   A.   Audit/inspection/evaluation reports with management
        decisions on which final action had not been taken at
        the beginning of the reporting period.
                                                                      0          $0


   B.   Audit/inspection/evaluation reports on which
        management decisions were made during the period.
                                                                      0           0


   C. Total audit/inspection/evaluation reports pending final
      action during the period (A + B).
                                                                      0           0


   D. Audit/inspection/evaluation reports on which final action
      was taken during the period:


        1. Dollar value of recommendations
           implemented:

           a. Based on management action                              0           0
           b. Based on proposed legislative action                    0           0


        2. Dollar value of recommendations not
           implemented
                                                                      0           0


        3. Total (D1 + D2)                                            0           0

   E.   Audit/inspection/evaluation reports needing final action
        at end of the period (C – D).
                                                                      0          $0




                                                  5
